Nos. 19-840 & 19-1019
IN THE

Supreme Court of the United States
STATE OF CALIFORNIA, ET AL., Petitioners,
v.
STATE OF TEXAS, ET AL., Respondents.
STATE OF TEXAS, ET AL., Petitioners,
v.
STATE OF CALIFORNIA, ET AL., Respondents.
On Writs of Certiorari to the United States Court of
Appeals for the Fifth Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 13th day of May, 2020, that the Brief for the National
Women’s Law Center, National Partnership for Women & Families, Black Women’s
Health Imperative, American Medical Women’s Association, and 77 Additional
Organizations as Amici Curiae Supporting Petitioners in No. 19-840 contains 7,996
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

Jaime A. Santos
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
JSantos@goodwinlaw.com
(202) 346-4000
May 13, 2020

Counsel of Record for Amici Curiae

